No.
IN THE
SUPREME COURT OF THE UNITED STATES
Biner Ma,
PETITIONER

i

VS.
CVS Pharmacy, Inc., et. al.
RESPONDENT(S)
PROOF OF SERVICE
I, Biner Ma, do declare that on this date, April 5, 2021, as required by Supreme
Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on the counsels of
all parties to the above proceeding by electronic means as encouraged by the Court’s
order of April 15, 2020 due to COVID-19.
The name and addresses of those served are as follows.
1.
2.

Jenna Kim, LITTLER MENDELSON, PC.
321 North Clark Street, Suite 1000 Chicago, IL 60654;
iekim@littler.com
Alice Kokodis, LITTLER MENDELSON, PC.
One International Plaza, Suite 2700 Boston, MA 02110;
akokodis@littler.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 5, 2021.
Biner Ma

nlcUviD
1 3 2021

